Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives


                          Update on the Safety and
For Release on Delivery
Expected at
10:00 a.m. EDT
Wednesday
July 18, 2012             Cost Aspects of the Federal
                          Aviation Administration’s
CC-2012-023



                          Contract Tower Program

                           Statement of
                           The Honorable Calvin L. Scovel III
                           Inspector General
                           U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:
Thank you for inviting me to testify on the Federal Aviation Administration’s (FAA)
Contract Tower Program. There are currently 250 contract towers nationwide providing
air traffic control services to a wide range of users, including general aviation,
commercial and cargo carriers, and the military. Since its inception 30 years ago, the
program has successfully served airports that otherwise would not have air traffic control
services, thereby increasing the level of safety for those pilots and communities.

Between 1998 and 2003, we completed four reviews of the Contract Tower Program. 1
Overall, we found little difference in the safety or quality of services provided by similar
FAA and contract towers. We also found that the contract towers provided air traffic
services to low-activity 2 airports at lower costs than the Agency could otherwise provide.
At the request of the House Committee on Appropriations, we initiated a new review of
the program. My testimony is based on our ongoing work and will focus on (1) the
Contract Tower Program’s safety aspects and overall user satisfaction, (2) whether the
program remains cost-efficient, and (3) actions FAA can take to improve program
oversight. Exhibit A provides a detailed explanation of our methodology. Exhibits B and
C list the locations of all contract towers and 92 comparable FAA towers.

IN SUMMARY
Contract towers continue to provide safe air traffic services and are strongly supported by
users. Our ongoing work has found that contract towers had a lower number and rate of
reported safety incidents 3 than similar FAA towers and that Agency safety evaluations
found fewer deficiencies with contract towers. Users did not raise any safety concerns
regarding the services provided by contract towers and believe the services they receive
from contract towers are comparable to those from similar FAA towers. Contract towers
also continue to provide cost-efficient air traffic control services, with the average
contract tower costing roughly $1.5 million less to operate annually than a comparable
FAA tower—due largely to lower staffing and salary levels. However, FAA can take
certain actions to improve its oversight of the program. These actions include
implementing a voluntary safety incident reporting program at contract towers,

1
    OIG Report No. AV-1998-147, “Federal Contract Tower Program,” May 18, 1998; OIG Report No. AV-2000-079, “Contract
    Towers: Observations on FAA's Study of Expanding the Program,” April 12, 2000; OIG Report No. AV-2002-068, “Audit
    Report on Subcontracting Issues of the Contract Tower Program,” December 14, 2001; OIG Report No. AV-2003-057,
    “Safety, Cost, and Operational Metrics of the Federal Aviation Administration's Visual Flight Rules Towers,” September 4,
    2003. OIG reports are available on our Web site: http://www.oig.dot.gov.
2
    Low activity towers are generally located at airports near smaller cities that are served by commuter airlines rather than major
    carriers. In many instances, there is no scheduled carrier operating from the airport and the activity consists of private,
    business, and general aviation operations.
3
    Safety incidents include operational errors, operational deviations, and runway incursions. An operational error occurs when an
    air traffic controller does not maintain minimum separation between two aircraft or between an aircraft and terrain or
    obstacles. An operational deviation occurs when a controller allows an aircraft to enter airspace managed by another controller
    without prior coordination and approval. A runway incursion is any incident involving an unauthorized aircraft, vehicle, or
    person on a runway.

                                                                                                                                  1
implementing processes to regularly evaluate contract towers as required by Congress,
and reviewing annual labor hours worked to determine if the contractors provide the level
of service called for in the contract.

BACKGROUND
In 1982, FAA began the Contract Tower Program as a pilot program to contract air traffic
services for five low-activity towers that were closed as a result of the Professional Air
Traffic Controllers Organization strike. In 1994, Congress provided funding for a multi-
year program to convert additional FAA low-activity towers to contract operations. The
program was further expanded in 1998 when Congress provided funding for a cost-
sharing program, which allows airports that would not normally qualify for the program
access by permitting the airport sponsors to pay for a portion of the costs to operate the
tower, with FAA providing at least 80 percent of the cost.

Currently, there are 250 towers in the Contract Tower Program across 46 States 4 and
4 territories; 228 towers are fully funded by FAA, 16 are part of the cost-share program,
and 6 towers are used by the Air National Guard. 5 Three contractors provide staff to
operate the towers in seven geographic areas. 6 The current contracts, which run from
February 1, 2010, to September 30, 2014, are worth nearly $600 million. FAA’s Contract
Tower and Weather Group (CTWG) within the Air Traffic Organization (ATO) oversees
the administrative functions of the program, and FAA’s Aviation Safety Organization
(AVS) provides safety oversight. FAA is requesting $138 million in fiscal year 2013 for
the Contract Tower Program.

CONTRACT TOWERS CONTINUE TO PROVIDE SAFE SERVICES AND
ARE SUPPORTED BY USERS
Overall, contract towers reported a lower number and rate of safety incidents, and FAA
facility evaluations identified fewer deficiencies with contract towers than with similar
FAA towers. In addition, users continue to support the program and are satisfied with the
safety and quality of the services provided by contract towers.

Contract Towers Have a Lower Number of Reported Safety Incidents and
Deficiencies Than Comparable FAA Towers

When compared with comparable FAA towers, contract towers reported both a lower
number and lower rate of operational errors, operational deviations, and runway



4
    The four States without a contract tower are Delaware, Maine, Rhode Island, and Vermont.
5
    The six Air National Guard Towers are included in the Contract Tower Program under a special agreement with the
    Department of Defense.
6
    The three contractors are Robinson Aviation (RVA) Inc., Midwest Air Traffic Control Service Inc., and Serco, Inc.

                                                                                                                        2
incursions in fiscal year 2010. 7 Table 1 shows our comparison of these safety incidents
reported at 240 contract towers and 92 comparable FAA towers. 8
Table 1. Number and Rate of Fiscal Year 2010 Safety Incidents at Comparable Contract
and FAA Air Traffic Control Towers

                        Total Number of Safety Incidents                  Incident Rate Per One-Million Operations

                      Operational       Operational        Runway         Operational         Operational           Runway
Towers
                          Errors         Deviations      Incursions           Errors           Deviations         Incursions

240 Contract                     18                12            167              1.24                 0.83            11.55
92 FAA                           52                35            275              4.54                 3.06            24.01
Source: OIG analysis of FAA data

FAA’s periodic evaluations of air traffic facilities’ compliance with FAA directives also
indicate that fewer procedural, training, and administrative deficiencies are found at
contract towers. Facility evaluations for a sample of 30 contract towers conducted
between May 2006 and September 2010 and a sample of 30 comparable FAA towers
conducted between January 2007 and September 2010 identified a total of
156 deficiencies at the 30 contract towers and 338 deficiencies at the 30 FAA towers.
While none of the deficiencies cited were serious in nature, some of the most frequently
identified deficiencies at both contract and FAA towers include outdated training records,
inadequate quality assurance reviews by facility managers, incomplete supplemental
controller training, and improper position relief briefings and radio communications by
controllers.

Users Are Satisfied With the Level and Quality of Services Provided by
Contract Towers

As we have reported previously, pilots, flight instructors, airport officials, fixed-based
operators, 9 and representatives from airport and general aviation organizations support
the Contract Tower Program. Specifically, users at 12 contract towers and 7 FAA towers
we visited during our current review were satisfied with the services provided by contract
towers and the three contractors and believed the services they receive were comparable
to similar FAA towers. In several instances, pilots were surprised to learn that towers
they frequently interacted with were actually contract towers and described the services
provided by FAA and contract towers as “seamless.”

National and facility officials from the National Air Traffic Controllers Association
(NATCA), who represent controllers at 63 contract towers, support the cost-share aspect
of the current program. However, they raised concerns that contract towers have much

7
    We began our review in June 2011, and the fiscal year 2010 data were the most complete and updated yearly information
    available for our audit.
8
    Identified by FAA as comparable towers.
9
    Fixed-base operators are airport tenants that provide fueling, maintenance, or other aviation-related services.

                                                                                                                            3
lower staffing levels than comparable FAA towers, are often staffed with only
1 controller for portions of the day, and that controller certification training at contract
towers can take as little as 30 days, while at an FAA facility it can take from 1 to 5 years.

We discussed NATCA’s concerns with FAA safety officials, local airport officials and
pilots, and aviation associations that use contract towers. Overall, they stated that contract
towers operate safely and did not have any concerns about staffing practices at contract
towers. Contract tower controllers are required to meet the same certification
requirements as FAA controllers and are certified by FAA. Additionally, most contract
tower controllers are also former FAA or military controllers who must have a Control
Tower Operator license in order to be hired and therefore generally require less time to
become certified at their locations. Conversely, FAA generally hires controllers for its air
traffic facilities with little or no air traffic experience who require more training in order
to certify at its facilities.

CONTRACT TOWERS CONTINUE TO PROVIDE COST-EFFICIENT
SERVICES
Contract towers continue to operate at lower costs than comparable FAA towers. Our
comparison of costs 10 at our sample of 30 contract towers and 30 FAA towers with
similar air traffic densities 11 found that the average operations costs in fiscal year 2010
were about $537,000 for a contract tower and about $2.025 million for an FAA tower—a
difference of $1.488 million, or 277 percent (see table 2).
Table 2. Average Cost and Staffing Differences Between 30 Contract Towers and 30
Comparable FAA Towers

                                        Average Air Traffic              Average FY 2010 Cost             Average Number of
                                                  Density                                                Air Traffic Personnel
FAA Tower                                               15.55                          $2,025,104                           16.23
Contract Tower                                          15.34                            $536,911                             6.03
Average Difference                                        0.21                         $1,488,193                           10.20

Source: OIG analysis based on data from FAA

The difference in cost is primarily due to two factors. First, contract towers are staffed at
lower levels than the comparable FAA towers. The 30 contract towers in our sample had
an average of 6 air traffic personnel at the facility, while the sample of 30 comparable
FAA towers had an average of 16 air traffic personnel. 12 Second, contract tower

10
     These costs included air traffic personnel compensation and benefits, travel and transportation, supplies, materials, and
     insurance. Infrastructure, maintenance, and equipment costs for FAA and contract towers were not included in our analysis
     because, under terms of the contract, contractors are not responsible for these costs. In addition, FAA’s FY 2010 estimated cost
     to administer the Contract Tower Program ($2.23 million or about $9,000 per contract tower) was not included in our cost
     calculation.
11
     Density is defined as the average number of operations at a tower per hour the facility is open.
12
     Air traffic personnel are defined as air traffic controllers, supervisors, and management.

                                                                                                                                   4
controllers’ salaries, which are based on Department of Labor wage rates, are lower than
the salaries paid to FAA controllers. For example, based on current Department of Labor
rates, an air traffic controller at the Albert Whitted Tower near Tampa, FL, would receive
base pay of about $56,000 per year, whereas an FAA-employed air traffic controller in
Sarasota, FL, an area with a similar cost of living, would receive base pay ranging from
about $63,000 to $85,000 per year, depending on experience.

FAA OVERSIGHT OF THE CONTRACT TOWER PROGRAM COULD BE
IMPROVED
While the Contract Tower Program continues to provide cost-efficient air traffic services
that are supported by users, there are opportunities for FAA to improve its oversight and
strengthen program controls. These opportunities include implementing a voluntary
safety incident reporting program at contract towers, implementing policies that require
contract towers to receive regular safety reviews, and improving agency oversight over
the contractual aspects of the program.

Accurate Incident Reporting at Contract Towers Is Critical To Maintaining
Safety

Contract towers are required to follow the same process for reporting and documenting
safety incidents as FAA facilities. However, according to two FAA studies that were
conducted in 2009 and 2010, contract towers had a lower number of reported runway
incursions than comparable FAA towers. The Agency determined that the main reasons
for the difference were that contract tower controllers either did not know the current
definition of a runway incursion or the criteria for classifying them. FAA also found that
two-thirds of the contract towers reviewed had not submitted runway safety action plans
for the previous 2 years.

In light of these findings, managers from FAA’s Runway Safety Program office met with
contractors and emphasized the importance of runway incursion prevention and
reporting. Subsequently, a 2010 FAA study showed runway incursions reporting at
contract towers had increased sharply. 13 However, strong senior-level oversight and
accountability by FAA and contractors, along with improved reporting mechanisms for
all air traffic facilities, are needed to address ongoing concerns about the accurate
reporting of runway incursions and other safety incidents. Additional oversight could
help ensure accurate and comprehensive reporting of safety incidents at contract towers.
This includes incorporating contract towers into a voluntary reporting system such as the
Air Traffic Safety Action Program (ATSAP). 14



13
     “Study of Runway Incursion Reporting at Federal Contract Towers,” ATO’s Office of Safety, December 2010.
14
     ATSAP is a voluntary, non-punitive safety reporting program that encourages controllers to report operational errors and other
     safety incidents.

                                                                                                                                  5
New Oversight System Does Not Ensure That Contract Towers Receive
Regular Safety Evaluations as Required by Congress

Prior to October 2010, FAA conducted evaluations of all air traffic facilities, including
contract towers, every 3 years. In January 2012, FAA transitioned to a new data-driven,
risk-based oversight system as its primary method to oversee air traffic facilities. Under
the new system, safety incident data are analyzed to identify specific safety problems or
trends at air traffic facilities. Based on this analysis, the Agency will then focus its
oversight efforts on those identified issues or trends. However, if data are unavailable due
to a lower rate of occurrence, are unreliable, or there are no trends to analyze, some low
risk towers, including contract towers, could go years without being evaluated. Should
there be lengthy periods between reviews of contract towers under this risk-based system,
FAA may not meet the intent of new legislation that requires the Secretary to “establish
uniform standards and requirements for regular safety assessments” of contract towers. 15

FAA Can Improve Its Contractual Oversight of the Program

Finally, FAA has opportunities to improve its oversight of the contractual and operational
aspects of the Contract Tower Program. This includes ensuring that the contractors are
providing the level of service required by the contract. In 1998 we reported that contract
towers were not staffed in accordance with contractor staffing plans. In response, FAA
included a provision in subsequent contracts requiring contractors to submit a staffing
plan that includes the number of controllers who will work at the tower and the total
annual number of hours those controllers will work, exclusive of vacation, holiday, and
sick leave. Once FAA approves the staffing plan, the contractors must comply with the
staffing levels and hours of service called for in the plan, and actual hours worked must
be within plus or minus 3 percent of the approved plan.

However, we found that the effectiveness of this control is limited because FAA does not
review the actual annual hours worked by contractors. Instead, the CTWG only reviews
the monthly reports provided by the three contractors. As a result, FAA may be paying
for services that have not been provided and is possibly missing opportunities to recoup
funds.

CONCLUSION
The Contract Tower Program has successfully contributed to FAA’s goal of ensuring the
safety and cost-effectiveness of the air traffic control system. However, the continued
success of the program will depend on effective follow through by FAA to enhance how
it collects and uses safety data on contract towers so that they receive the appropriate
level of oversight and to improve controls over the program’s contractual aspects to
protect against any potential misuse of funds.

15
     “FAA Modernization and Reform Act of 2012,” Sec. 147, Public Law 112-95, February 14, 2012.

                                                                                                   6
This concludes my statement. I would be happy to address any questions from the
Chairman or Members of the Subcommittee at this time.




                                                                              7
EXHIBIT A. OIG METHODOLOGY FOR SAFETY AND COST ANALYSES
Universe of Contract and FAA Towers and Tower Samples Selected
The universe of contract towers consisted of 246 towers that were included in the
Contract Tower Program as of February 2011. This includes 224 fully funded towers, 16
cost-share towers, and 6 towers that operated on behalf of the Air National Guard. The
universe of FAA towers consisted of 92 towers that were selected by FAA as being
comparable to contract towers.
To determine our sample of 30 contract and 30 FAA towers, we utilized a universe of
240 contract towers that were in the program as of February 2011 and excluded the 6 Air
National Guard towers on the advice of the CTWG Program Manager because they were
operated by the Department of Defense, not FAA. The OIG statistician, using FY 2009
and FY 2010 numbers of operations and hours of service, calculated the average density
for each of 240 contract towers and 92 FAA towers. The statistician then selected a
random sample of 30 contract towers where a tower’s selection probability was
proportional to its average density, which we used to select 30 similar FAA towers by
matching the average density of each contract tower to a FAA tower.
Safety Analyses
To determine the number and rate of safety incidents (operational errors, operational
deviations, and runway incursions) at contract towers and comparable FAA towers, we
reviewed FY 2010 safety incident data provided by ATO’s Office of Safety (ATO-S) for
the 240 contract towers (excluding the 6 Air National Guard towers) and 92 FAA towers.
We determined the total number of incidents for two groups of facilities and calculated
the rate of per million operations for each type of incident.
To determine safety and other deficiencies identified by FAA at contract and FAA
towers, we reviewed facility safety evaluations conducted by FAA between May
12, 2006, and September 29, 2010, for the 30 sampled contract towers and between
January 24, 2007, and September 29, 2010, for the 30 sampled FAA towers from FAA’s
Facility Safety Assessment System (FSAS). We then identified the total number and type
of deficiencies cited at each tower.
Cost Analysis
To determine the difference in cost between contract towers and comparable FAA
towers, we reviewed the contractor’s agreement with FAA to determine the contractor’s
responsibilities. We then compared similar FY 2010 costs for the sample of 30 contract
towers and 30 FAA towers to determine the annual cost difference. These costs included
air traffic personnel compensation and benefits, travel and transportation, supplies,
materials, and insurance. Infrastructure, maintenance, and equipment costs for contract
and FAA towers were not included in our analysis because, under terms of the contract,

                                                                                     8
Exhibit A. OIG Methodology for Safety and Cost Analyses
contractors are not responsible for these costs. FAA’s FY 2010 estimated cost to
administer the Contract Tower Program, $2.23 million or about $9,000 per contract
tower, was not included in our cost calculation.




                                                                                9
Exhibit A. OIG Methodology for Safety and Cost Analyses
EXHIBIT B. LIST OF CONTRACT TOWERS (AS OF MAY 2012)
                                           Tower                                                Tower
State             Airport Name                     State              Airport Name
                                              ID                                                  ID
AK      Bethel                              BET    CT      Tweed-New Haven                       HVN
AK      Kenai                               ENA    CT      Waterbury                             OXC
AK      King Salmon                         AKN    FL      Albert Whitted                        SPG
AK      Kodiak                              ADQ    FL      Boca Raton                            BCT
AL      Brookley                            BFM    FL      Cecil Field                           VQQ
AL      Dothan                              DHN    FL      Charlotte County Airport              PGD
AL      Tuscaloosa Municipal                TCL    FL      Flagler County Airport                XFL
AR      Fayetteville                        FYV    FL      Gainesville                           GNV
AR      Northwest Arkansas Regional         XNA    FL      Hollywood/North Perry                HWO
AR      Rogers Municipal-Carter Fld (CS)    ROG    FL      Jacksonville/Craig                    CRG
AR      Springdale Municipal (CS)           ASG    FL      Key West                              EYW
AR      Texarkana Muni/Webb Fld             TXK    FL      Kissimmee Municipal                   ISM
AZ      Chandler                            CHD    FL      Lakeland Municipal                    LAL
AZ      Flagstaff Pulliam                   FLG    FL      Leesburg Regional                     LEE
AZ      Glendale                            GEU    FL      Melbourne                             MLB
AZ      Goodyear                            GYR    FL      Naples                                APF
AZ      Laughlin International               IFP   FL      New Smyrna Beach Municipal Arpt       EVB
AZ      Ryan Field                          RYN    FL      Ocala Airport                         OCF
AZ      Williams Gateway                    IWA    FL      Opa Locka                             OPF
CA      Castle                              MER    FL      Ormond Beach Municipal                OMN
CA      Chico Municipal                     CIC    FL      Page Field                            FMY
CA      Fullerton                           FUL    FL      Panama City/Bay County                ECP
CA      Hawthorne                           HHR    FL      Pompano Beach                         PMP
CA      Mather                              MHR    FL      St Augustine                          SGJ
CA      Modesto                             MOD    FL      Stuart/Witham                         SUA
CA      Oxnard                              OXR    FL      Titusville/Cocoa                       TIX
CA      Palmdale                            PMD    GA      Anthens Municipal                     AHN
CA      Ramona                              RNM    GA      Fulton County                         FTY
CA      Redding                             RDD    GA      Gwinnett County                       LZU
CA      Riverside                           RAL    GA      Macon                                 MCN
CA      Sacramento Executive                SAC    GA      Mc Collum                             RYY
CA      Salinas Municipal                   SNS    GA      SW Georgia/Albany-Dougherty           ABY
CA      San Carlos                          SQL    GU      Agana, Guam                           GUM
CA      San Diego Brown Field               SDM    HI      Kalaeloa (John Rogers Field) (ANG)    JRF
CA      San Luis Obispo                     SBP    HI      Keahole-Kona                          KOA
CA      Santa Maria                         SMX    HI      Lihue                                  LIH
CA      Victorville                         VCV    HI      Molokai                               MKK
CA      Whiteman                            WHP    IA      Dubuque                               DBQ
CA      William J. Fox/Lancaster            WJF    ID      Friedman Memorial/Hailey              SUN
CO      Eagle County                        EGE    ID      Idaho Falls                           IDA
CO      Front Range                         FTG    ID      Lewiston-Nez Perce County             LWS
CO      Grand Junction                      GJT    ID      Pocatello Municipal                   PIH
CT      Bridgeport                          BDR    IL      Bloomington/Normal                    BMI
CT      Danbury Municipal                   DXR    IL      Decatur                               DEC
CT      Groton- New London                  GON    IL      So. Illinois/Carbondale               MDH
CT      Hartford-Brainard                   HFD    IL      St. Louis Regional                    ALN


                                                                                                  10
Exhibit B. List of Contract Towers (as of May 2012)
                                            Tower                                              Tower
State             Airport Name                      State              Airport Name
                                               ID                                                 ID
IL      Waukegan Regional                    UGN    MS      Hawkins Field                       HKS
IL      Williamson County (CS)              MWA     MS      Meridian/Key Field (ANG)            MEI
IN      Monroe County/ Bloomington (CS)      BMG    MS      Olive Branch                        OLV
IN      Columbus Municipal                   BAK    MS      Stennis                             HSA
IN      Gary Regional                        GYY    MS      Tupelo Regional                     TUP
IN      Muncie/Delaware County (CS)           MIE   MT      Gallatin Field/Bozeman              BZN
KS      Forbes Field                         FOE    MT      Kalispell/Glacier Park              GPI
KS      Garden City Regional Airport (CS)    GCK    MT      Missoula                            MSO
KS      Hutchinson Municipal                 HUT    NC      Concord                             JQF
KS      Johnson County Executive             OJC    NC      Hickory                             HKY
KS      Manhattan Regional                   MHK    NC      Kinston                             ISO
KS      New Century                           IXD   NC      New Bern                            EWN
KS      Philip Billard Municipal             TOP    NC      Smith Reynolds (Winston Salem)       INT
KS      Salina Municipal                     SLN    ND      Minot                               MOT
KY      Barkley Regional                     PAH    NE      Central Nebraska/Grd Island (CS)    GRI
KY      Owensboro/Daviess County            OWB     NH      Boire Field/Nashua                  ASH
LA      Acadiana Regional                    ARA    NH      Lebanon Municipal                   LEB
LA      Alexandria International (ANG)       AEX    NJ      Trenton                             TTN
LA      Chennault                            CWF    NM      Double Eagle II                     AEG
LA      Houma Terreborne                     HUM    NM      Farmington Municipal                FMN
LA      Shreveport-DT                        DTN    NM      Lea County/Hobbs (CS)               HOB
MA      Barnes Municipal                     BAF    NM      Santa Fe County Municipal           SAF
MA      Beverly                              BVY    NV      Henderson                           HND
MA      Hyannis                              HYA    NY      Francis F. Gabreski                 FOK
MA      Lawrence                             LWM    NY      Niagara Falls                       IAG
MA      Martha's Vineyard                    MVY    NY      Rome-Griffiss                       RME
MA      New Bedford                          EWB    NY      Stewart                             SWF
MA      Norwood                             OWD     NY      Tompkins County                      ITH
MA      Worcester                            ORH    OH      Burke Lakefront                     BKL
MD      Easton                               ESN    OH      Cincinnati Muni/Lunken              LUK
MD      Frederick                            FDK    OH      Columbus Airport (Bolton Field)     TZR
MD      Martin State                         MTN    OH      Cuyahoga County                     CGF
MD      Salisbury-Wicomico County            SBY    OH      Ohio State University               OSU
MD      Washington Co. Reg'l/ Hagerstown     HGR    OK      Ardmore Municipal (CS)              ADM
MI      Battle Creek                         BTL    OK      Enid Woodring Muni                 WDG
MI      Detroit City                         DET    OK      Lawton Municipal                    LAW
MI      Jackson (CS)                         JXN    OK      Stillwater                         SWO
MI      Sawyer Gwinn                         SAW    OK      Univ of Oklahoma/Westheimer         OUN
MN      Anoka                                ANE    OK      Wiley Post                          PWA
MN      St. Cloud Regional                   STC    OR      Klamath Falls (ANG)                 LMT
MO      Branson Airport                      BBG    OR      McNary Field                        SLE
MO      Columbia                             COU    OR      Medford                             MFR
MO      Jefferson City Memorial (CS)          JEF   OR      Pendleton Municipal                 PDT
MO      Joplin Regional (CS)                  JLN   OR      Redmond                             RDM
MO      Rosecrans Mem'l/St. Joseph (ANG)      STJ   OR      Southwest Oregon Regional           OTH
MP      Saipan International                 GSN    OR      Troutdale                           TTD
MS      Golden Triangle Regional Airport     GTR    PA      Arnold Palmer Regional              LBE
MS      Greenville Municipal                 GLH    PA      Capital City                        CXY


                                                                                                 11
Exhibit B. List of Contract Towers (as of May 2012)
                                                Tower                                          Tower
State              Airport Name                         State              Airport Name
                                                   ID                                            ID
 PA     Lancaster                                LNS    TX      Sugarland                       SGR
 PA     University Park                          UNV    TX      Tyler                           TYR
 PA     Williamsport/Lycoming Co. (CS)            IPT   TX      Victoria                        VCT
 PR     Isla Grande                              SIG    TX      Waco                           CNW
 PR     Rafael Hernandez (Aquadilla)             BQN    UT      Ogden-Hinckley Municipal        OGD
 SC     Donaldson Center                         GYH    UT      Provo Municipal                 PVU
 SC     Grand Strand/Myrtle Beach                CRE    VA      Charlottesville-Albemarle       CHO
 SC     Greenville Downtown                      GMU    VA      Lynchburg                       LYH
 SC     Hilton Head Airport                      HXD    VI      Henry E. Rohlsen Airport        STX
 SD     Rapid City Regional                      RAP    WA      Bellingham Intl                  BLI
 TN     McKeller-Sipes                           MKL    WA      Felts Field                     SFF
 TN     Millington                               NQA    WA      Olympia                         OLM
 TN     Smyrna                                   MQY    WA      Renton                          RNT
 TX     Arlington Municipal                      GKY    WA      Tacoma Narrows                  TIW
 TX     Brownsville Intl                         BRO    WA      Walla Walla Regional (CS)       ALW
 TX     Denton Municipal                         DTO    WA      Yakima                          YKM
 TX     Easterwood                               CLL    WI      Appleton                        ATW
 TX     Fort Worth-Spinks (CS)                   FWS    WI      Central Wisconsin               CWA
 TX     Georgetown                               GTU    WI      Chippewa Valley (Eau Claire)    EAU
 TX     Grand Prairie (CS)                       GPM    WI      Kenosha Muni                    ENW
 TX     Laredo Int'l                             LRD    WI      La Crosse                       LSE
 TX     Lonestar Executive Airport               CXO    WI      Rock County                     JVL
 TX     McAllen                                  MFE    WI      Timmerman                      MWC
 TX     McKinney Municipal                        TKI   WI      Waukesha County                 UES
 TX     New Braunfels Municipal                  BAZ    WI      Wittman Regional                OSH
 TX     Redbird                                  RBD    WV      Greenbrier Valley               LWB
 TX     Rio Grand Valley (Harlingen)             HRL    WV      Morgantown                     MGW
 TX     San Angelo/Mathis Field                  SJT    WV      Parkersburg/Wood County         PKB
 TX     San Marcos                               HYI    WV      Wheeling Ohio County            HLG
 TX     (Galveston) Scholes Int'l                GLS    WY      Cheyenne (ANG)                  CYS
 TX     Stinson Municipal                        SSF    WY      Jackson Hole                    JAC
ANG: Air National Guard Tower; CS: Cost-Share Tower
Source: FAA




                                                                                                 12
Exhibit B. List of Contract Towers (as of May 2012)
 EXHIBIT C. LIST OF 92 COMPARABLE FAA TOWERS
                                                    Tower                                                                Tower
State       Tower Name                                            State      Tower Name
                                                      ID                                                                    ID
AK          Juneau Tower                             JNU          IL         Aurora Tower                                 ARR
AK          Merrill Tower                            MRI          IL         Chicago Executive Tower                      PWK
AZ          Falcon Tower                             FFZ          IL         Downtown Tower                               CPS
AZ          Grand Canyon Tower                       GCN          IL         Dupage Tower                                 DPA
AZ          Prescott Tower                           PRC          IN         Lafayette Tower                              LAF
AZ          Scottsdale Tower                         SDL          KY         Bowman Tower                                 LOU
CA          Brackett Tower                           POC          LA         Lakefront Tower                              NEW
CA          Burbank Tower                            BUR          MA         Hanscom Tower                                BED
CA          Camarillo Tower                          CMA          MA         Nantucket Tower                              ACK
CA          Chino Tower                              CNO          MD         Andrews Tower                                ADW
CA          Concord Tower                            CCR          MI         Ann Arbor Tower                              ARB
CA          El Monte Tower                           EMT          MI         Pontiac Tower                                PTK
CA          Gillespie Tower                          SEE          MI         Traverse City Tower                          TVC
CA          Hayward Tower                           HWD           MI         Willow Run Tower                              YIP
CA          Livermore Tower                          LVK          MN         Crystal Tower                                MIC
CA          Monterey Tower                           MRY          MN         Flying Cloud Tower                           FCM
CA          Montgomery Tower                         MYF          MN         St Paul Tower                                STP
CA          Napa Tower                               APC          MO         Downtown Tower                               MKC
CA          Ontario Tower                            ONT          MO         Helena Tower                                 HLN
CA          Palm Springs Tower                       PSP          MO         Spirit Tower                                 SUS
CA          Palo Alto Tower                          PAO          ND         Grand Forks Tower                            GFK
CA          Palomar Tower                            CRQ          NE         Eppley Tower                                 OMA
CA          Reid-Hillview Tower                      RHV          NE         Lincoln Tower                                LNK
CA          Sacramento Tower                         SMF          NH         Manchester Tower                             MHT
CA          San Diego Tower                          SAN          NJ         Caldwell Tower                              CDW
CA          San Jose Tower                           SJC          NJ         Morristown Tower                            MMU
CA          Santa Monica Tower                       SMO          NJ         Teterboro Tower                              TEB
CA          Sonoma Tower                             STS          NV         North Las Vegas Tower                        VGT
CA          Stockton Tower                           SCK          NY         Farmingdale Tower                            FRG
CA          Torrance Tower                           TOA          NY         Islip Tower                                   ISP
CO          Broomfield Tower                         BJC          NY         Poughkeepsie Tower                           POU
CO          Pueblo Tower                             PUB          NY         Westchester Tower                            HPN
CT          Bradley Tower                            BDL          OR         Hillsboro Tower                              HIO
DE          Wilmington Tower                         ILG          PA         Allegheny Tower                              AGC
FL          Fort Lauderdale Executive Tower          FXE          PA         Northeast Philadelphia Tower                 PNE
FL          Orlando Executive Tower                  ORL          PR         San Juan Tower                               SJU
FL          Pensacola Tower                          PNS          TX         Addison Tower                                ADS
FL          Sarasota Tower                           SRQ          TX         Alliance Tower                               AFW
FL          St Lucie Tower                           FPR          TX         Beaumont Tower                               BPT
FL          St Petersburg Tower                      PIE          TX         Hooks Tower                                 DWH
FL          Tamiami Tower                            TMB          TX         Meacham Tower                                FTW
FL          Vero Beach Tower                         VRB          VA         Manassas Tower                               HEF
GA          Columbus Tower                           CSG          VA         Patrick Henry Tower                          PHF
GA          DeKalb - Peachtree Tower                 PDK          VA         Richmond Tower                               RIC
HI          Maui Tower                               OGG          VI         St Thomas Tower                              STT
ID          Twin Falls Tower                         TWF          WA         Paine Tower                                  PAE
 This list was provided by FAA for comparison purposes only. Currently FAA has no plans to expand the Contract Tower Program to
 additional FAA-operated towers.

 Source: FAA


                                                                                                                             13
 Exhibit C. List of 92 Comparable FAA Towers
